Corps, the Louisiana Department of Environmental Quality (LDEQ), and the landfill
operator, and reviewed relevant documentation. City officials declined to meet with us.
We conducted our fieldwork from July 14, to September 11,2006.

Background

As a result of Hurricanes Katrina and Rita in August and September 2005, FEMA tasked
the Corps to perform debris removal on behalf of various cities and parishes in Louisiana,
including the City of New Orleans and some of the parishes surrounding the City. Under
its agreement with FEMA, the Corps awarded contracts for debris removal and FEMA
reimbursed the Corps. FEMA officials said they relied on local officials to identify
properly permitted landfill sites. The Corps used three primary landfills: Chef Menteur,
Gentilly, and Highway 90.


                                RESULTS OF REVIEW

The donation agreement was not appropriate because the "donations"agreed to by the 

Chef Menteur landfill operator and the Mayor of the City of New Orleans increased 

debris removal costs without justification or added benefits. In substance, the donations 

should be treated as a credit and deducted 
from the City's final claim to reduce FEMA's
                                                                                   

cost of debris removal. Even with the added cost of the donations, the Corps' use of Chef 

Menteur was more cost effective and productive than the use of Highway 90, but using 

the Gentilly
    
         landfill was more cost effective and productive than using either Chef 

Menteur or Highway 90. However, FEMA severely restricted the use of the Gentilly 

landfill by limiting it to 5,000 cubic yards of debris per day. In addition, the August 15, 

2006, closing of Chef Menteur resulted in higher costs and slower debris removal. 


Creation of Chef Menteur Landfd

Before Hurricane Katrina, Chef Menteur was used as a household waste transfer site.
The owner of the waste transfer operation contacted the City and LDEQ and proposed
using the site as a landfill. On February 14,2006, the City's Mayor signed an agreement
with the waste transfer operation owner allowing him to operate Chef Menteur as a
landfill. Another document signed by the Mayor said that approval was effective until
debris removal was complete. Due to the urgent nature of the debris removal, the Mayor
suspended the requirement for a local conditional use permit and, in April 2006, LDEQ
granted emergency authorization for the landfill to accept construction and demolition
debris. On April 14,2006, the Corps provided emergency authorization for the site to
begin operation. The landfill operator, LDEQ, and the U.S. Environmental Protection
Agency implemented a monitoring process to minimize the amount of unauthorized
material going into the landfill. LDEQ took air and water samples from the landfill
during May and June 2006 that showed particulates found were not posing a health risk.
Landfill Operator's Donation Agreement With the Citv

On the same day the Mayor signed the agreement permitting operation of the Chef
Menteur landfill, he also signed a notarized agreement with the landfill operator
stipulating that the landfill operator donate 22 percent of landfill revenues to the City.
Landfill revenues consisted of tipping fees that debris removal contractors paid to the
landfill operator. Under this donation agreement, the City is to receive an estimated
$860,000 based on the amount of debris delivered fiom New Orleans sites to Chef
Menteur before it closed.

As of August 15,2006, the landfill operator said he had made no payments to the City,
but intended to fulfill the terms of the agreement. He also said that financial agreements
such as the donation agreement are commonly used in the landfill business to compensate
the host government for potential additional expenses, such as wear and tear on the
roadways. However, he said these arrangements are usually referred to as "royalties" or
"host fees," instead of "donations." He would not confirm whether this agreement was a
prerequisite to the City's approval for the landfill operation. The City Attorney also
declined to comment, citing ongoing litigation between the City and the landfill operator.

The landfill operator's tipping fee for Chef Menteur was $5.00 per cubic yard, which is
significantly higher than the $3.50 tipping fee at the nearby Gentilly and the $2.75 tipping
fee at Highway 90. Under the donation agreement, the landfill operator is to pay the City
$1.10 of the $5.00 tipping fee, which reduces his net revenue fiom the tipping fee to
$3.90, an amount closer to the Gentilly tipping fee.

There is nothing inappropriate about a private citizen or firm making donations to a
cause. The word "donation" implies that the donor is making a voluntary gift without
expecting anything in return. In fact, the donation agreement says that the "City of New
Orleans has provided neither goods nor services in consideration, in whole or in part, for
the Donation." However, the donation agreement also says that the landfill operator will
submit its calculation of the 22 percent of landfill revenues "to the City along with
payment and will give the City the opportunity to validate the calculation. The Donation
shall become effective upon, and continue so long as, [the landfill operator's] disposal
operations continue at the landfill."

Common sense tells us that the beneficiary of a voluntary donation would not normally
require the donor to (1) sign a notarized agreement, (2) submit calculation of donated
amounts to the beneficiary for validation, or (3) continue donations so long as the donor
operated a business that required the beneficiary's authorization. These requirements
provide convincing evidence that the landfill operator's "donation"of 22 percent of gross
revenues was contingent on the City's approval to operate the landfill.

Further, these requirements, together with the fact that the tipping fees for the Chef
Menteur landfill were significantly higher than other local landfills, indicate that the
landfill operator passed the cost of the "donations"to the Corps' contractors.
Inadvertently, the Corps subsequently passed these unnecessary costs to FEMA through
its mission assignment for debris removal.

Office of Management and Budget (OMB) Circular A-87, codified at 2 CFR Part 225,
Appendix A, section C. 1.i, states that, to be allowable under federal awards, costs must
be net of all applicable credits. Also, FEMA's Public Assistance Guide (FEMA 322,
October 1999, p.33) states that eligible costs must be "reduced by all applicable credits,
such as insurance proceeds and salvage values."

FEMA did not require the City to pay for debris removal necessitated by Hurricanes
Katrina and Rita, but the City should not profit from those debris removal operations,
especially when the profit (donations) appears to be at the federal government's expense.
Therefore, in substance, the donations should be treated as a credit and deducted from the
City's final claim for other disaster costs, effectively to reduce FEMA's costs for the
City's debris removal.

Closing; of the Chef Menteur Landfill

In a February 14,2006 letter, the Mayor asked LDEQ to approve the landfill for "the
duration of hurricane Katrina disaster cleanup efforts, at this time estimated to be 12
months." However, the Mayor suspended the requirement for a conditional use permit,
normally required to operate a landfill, for only six months. The City Attorney closed
Chef Menteur on August 15,2006, because the six months had passed and the landfill
operator had not applied for a permit. The landfill operator said that he submitted an
application for a permit on August 14,2006, and subsequently filed a lawsuit in federal
court to reopen the landfill.

Potential Cost of Chef Menteur Closure

Closing the Chef Menteur landfill has resulted in slower debris removal and higher costs.
The Highway 90 landfill is about 15 miles further from the debris removal sites than Chef
Menteur, so the contractors have to drive further. Gentilly is closer than Highway 90, but
FEMA has restricted the amount of debris that the Corps can dump at Gentilly. As a
result, most debris is being hauled to the Highway 90 landfill. Although the tipping fees
at Chef Menteur were significantly higher than Highway 90, the debris removal costs for
delivery to Highway 90 are greater because of the increased traveling distance. We
estimate a decrease of about 15 percent in the daily volume delivered to Highway 90 and
an increase in daily costs of about $19,000.

We asked FEMA and Corps officials for the rationale of limiting Corps contractors to
5,000 cubic yards of debris per day at Gentilly because debris disposal at Gentilly costs
less than either Chef Menteur or Highway 90. FEMA officials said they imposed the
limit because of environmental concerns. LDEQ authorized a daily limit of 19,000 cubic
yards at Gentilly, and, on August 28,2006, raised that limit to 50,000 cubic yards after
the landfill operator added environmental safety procedures. Debris disposal at Chef
Menteur before it closed averaged about 9,500 cubic yards per day. As of September
2006, the end of our fieldwork, debris disposal at Gentilly, fiom all sources, averaged
about 13,000 cubic yards per day.

On December 5,2006, we spoke with FEMA officials again on the issue of limiting
debris disposal at the Gentilly landfill. They said they were currently limiting debris
disposal at Gentilly, fiom all sources, to 19,000 cubic yards per day and would consider
raising that limit when specified improvements were completed to address environmental
concerns.


                     CONCLUSION AND RECOMMENDATION

We concluded that a link does exist between the City's decision to open Chef Menteur,
the donation agreement, and the high tipping fees. The donation agreement was
inappropriate and resulted in higher tipping fees that were eventually passed on to
FEMA. Finally, the Corps' use of Chef Menteur was more cost effective and productive
than the use of Highway 90, but less cost effective and productive than using Gentilly.

We recommend that the Director of FEMA's Louisiana Transitional Recovery Office
require the City to treat its receipts under the donation agreement, currently estimated at
$860,000, as a credit to be deducted fi-om the City's claim for other disaster costs.


         DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOW-UP

We discussed the results of our review with FEMA officials on August 21,2006, and
with State program officials on September 7,2006. These officials agreed that the City
should reimburse FEMA'for its receipts under the donation agreement. City officials
declined to comment due to the pending lawsuit by the Chef Menteur landfill operator.
FEMA officials also agreed that using Gentilly would result in lower costs.

Please advise this office within 30 days of the actions taken or planned to implement our
recommendation, including target completion dates for any planned actions. Should you
have any questions concerning this report, please call me at (940) 891-8900 or Jack
Lankford, Audit Manager, at (510) 377-7383.


cc: 	   Audit Liaison, FEMA
        Audit Liaison, DHS
        Deputy Director, Gulf Coast Recovery
        Regional Director, FEMA Region VI
        Public Assistance Officer, FEMA Louisiana TRO
        Chief of Staff, FEMA Louisiana TRO
        Manager, Compliance Audit Division, LLA
        Louisiana State Coordinating Officer
        Louisiana State Inspector General
